             OFFICE OF
      THE INSPECTOR GENERAL

 SOCIAL SECURITY ADMINISTRATION

   ACCURACY OF TITLE II SURVIVORS BENEFIT
     TRANSACTIONS GREATER THAN $30,000
PROCESSED THROUGH THE MANUAL ADJUSTMENT,
     CREDIT AND AWARD PROCESS SYSTEM

        October 2011   A-04-10-10119




  AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

    Conduct and supervise independent and objective audits and
       investigations relating to agency programs and operations.
      Promote economy, effectiveness, and efficiency within the agency.
      Prevent and detect fraud, waste, and abuse in agency programs and
       operations.
      Review and make recommendations regarding existing and proposed
       legislation and regulations relating to agency programs and operations.
      Keep the agency head and the Congress fully and currently informed of
       problems in agency programs and operations.

   To ensure objectivity, the IG Act empowers the IG with:

    Independence to determine what reviews to perform.
    Access to all information necessary for the reviews.
    Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                              SOCIAL SECURITY

MEMORANDUM

Date:   October 11, 2011                                                                  Refer To:

To:     The Commissioner

From:   Inspector General

Subject: Accuracy of Title II Survivors Benefit Transactions Greater Than $30,000 Processed
        Through the Manual Adjustment, Credit and Award Process System (A-04-10-10119)


        OBJECTIVE
        Our objective was to assess the accuracy of survivors benefit transactions greater than
        $30,000 that Social Security Administration (SSA) staff processed through the Manual
        Adjustment, Credit and Award Process (MADCAP) system.

        BACKGROUND
        SSA administers the Old-Age, Survivors and Disability Insurance (OASDI) program
        under Title II of the Social Security Act, as amended (Act). Section 202 of the Act 1
        requires that SSA provide monthly survivors benefits to individuals who meet specific
        eligibility requirements. SSA issues survivors benefit payments to the surviving spouse
        and children and, in certain situations, to a surviving parent(s) or a divorced spouse. 2
        However, in certain situations, a person over age 18 may be eligible for child survivors
        benefits on a deceased parent’s Social Security record. 3 For a person over age 18 to
        be eligible for child survivors benefits, the individual must (1) have become disabled
        before age 22, (2) have had a deceased parent who qualified for OASDI, (3) have been
        dependent on the deceased parent, and (4) be unmarried. 4 If an individual meets
        these eligibility requirements, SSA considers him/her a childhood disability beneficiary.

        In each of the cases we tested, SSA did not recognize a survivor was entitled to
        survivors benefits at the time of the parent or spouse’s death. When SSA ultimately
        recognized the claim involved an eligible survivor, it determined whether the beneficiary
        1
            Social Security Act § 202; 42 U.S.C. § 402.
        2
            Social Security Act § 202; 42 U.S.C. § 402 (b) (1), (c) (1), (d) (1), (e) (1), and (f) (1).
        3
            Social Security Act § 202; 42 U.S.C § 402 (d) (1).
        4
            Social Security Act § 202; 42 U.S.C § 402 (d) (1). (A), (B), and (C).
Page 2 – The Commissioner


was entitled to past-due survivors benefits. Generally, SSA’s automated systems
processed monthly survivors benefit payments. However, for the cases we tested,
SSA’s automated or direct input systems could not completely process the actions. As
such, authorized technicians at SSA’s program service centers manually processed the
actions through the MADCAP system.

In our sampled cases, SSA determined the childhood disability beneficiaries (over
age 18) and spouses were entitled to past-due survivors insurance benefits for periods
ranging from 6 to 30 years. As such, the MADCAP transactions recording the past-due
survivors insurance benefits exceeded $30,000. However, in many cases the surviving
beneficiary received Supplemental Security Income (SSI) payments. 5 After SSA
calculated and applied the SSI payment offset 6 against the MADCAP action, the
resulting payments were usually less than $30,000.

For example, a Title II eligible parent died in June 1999. At that time, the beneficiary’s
child was receiving SSI payments. The child became entitled to SSI in 1985, just before
age 22 and therefore qualified as a childhood disability beneficiary. At the time of the
parent’s death, SSA did not recognize that the childhood disability beneficiary may have
been eligible for survivors benefits. However, in 2009, SSA took steps to determine
whether it owed the individual survivors benefits. SSA calculated preliminary survivors
benefits of $63,838 for the period February 1985 7 through December 2004 8 and
recorded a MADCAP action for this amount on the parent’s Title II record. SSA also
determined that it owed $29,658 in preliminary survivors benefits for the period
January 2005 through February 2009. In total, SSA calculated preliminary survivors
benefits of $93,496. To determine the final survivors benefits due, SSA reduced the
$93,496 by the SSI paid to the childhood disability beneficiary ($87,673.52 for the
period April 1985 through May 2009). As a result, SSA owed the beneficiary
$5,822.48 ($93,496 minus $87,673.52) in past-due benefits.

5
  SSA administers the SSI program under Title XVI of the Act. SSI provides a minimum level of support
to qualified individuals who are blind, disabled, or aged and who have limited income and resources.
Social Security Act § 1601 et seq., 42 U.S.C. § 1381 et seq.
6
  The SSI program is needs-based. For those claimants concurrently eligible for Title II and XVI benefits,
receipt of Title II benefits will result in a reduction or elimination of Title XVI benefits. Social Security
Act § 1611 and 1612.
7
  A childhood disability beneficiary (over the age 18) receiving SSI may also be eligible for OASDI
benefits as a dependent of an insured parent (See 20 C.F.R. § 404.350). When SSA recognized the
childhood disability beneficiary (over age 18), it determined whether additional disability insurance
benefits were due during the beneficiary’s entire SSI entitlement period (preceding the parents’ death).
Any resulting past-due disability insurance was included with the past-due survivors insurance payment.
For our study, we refer to the combined disability and survivors insurance benefits processed as one
transaction in MADCAP as “survivors benefits.”
8
 SSA’s Payment History Update System (PHUS) records benefit payment transactions chronologically.
PHUS separately records all payment transactions that occurred within 4 years of the current year.
However, for payment transactions that occurred 4-years before the current year, PHUS records the
payment actions in aggregate. As such, the MADCAP action to record the preliminary past-due benefit
calculation is based on the aggregate payment action recorded in PHUS.
Page 3 – The Commissioner


METHODOLOGY
We reviewed a random sample of 50 survivors benefits transactions over $30,000 that
SSA staff processed through the MADCAP system. We selected our sample from a
population of 1,068 MADCAP transactions SSA processed between October 1, 2008
and September 30, 2009. For each sampled transaction, we tested the accuracy of the
(1) MADCAP action that determined the preliminary past-due survivors benefits, (2) SSI
offset amount, and (3) resulting payments. In situations where the MADCAP action
resulted in a payment of $30,000 or more, we tested whether SSA issued the payment
through the Single Payment System (SPS), as required by policies and procedures. 9

Further information regarding our scope and methodology as well as our sampling
methodology is in Appendices B and C, respectively.

RESULTS OF REVIEW
SSA did not always accurately process the MADCAP action that determined the
preliminary past-due survivors benefits and SSI offset amount. Of the 50 sampled
MADCAP transactions tested, 8 (16 percent) had payment errors totaling $87,238
($54,840 in overpayments and $32,398 in underpayments.) Based on these payment
errors, we estimate that approximately 171 MADCAP transactions in our population had
related payment errors totaling about $1.9 million. See Appendix C for our projection
methodology.

PAYMENT ERRORS
Of the 50 randomly selected MADCAP transactions, 8 (16 percent) had payment errors
totaling $87,238 ($54,840 in overpayments and $32,398 in underpayments.) Table 1
details the payments errors.




9
    SSA, Program Operations Manual System (POMS), SM 00834.001, effective 11/16/2006 to present.
Page 4 – The Commissioner


                                Table 1: Payment Errors
                          Total Payment
                             Error on
                            Deceased
                           Beneficiary’s     Type of Payment
                          Title II Record          Error
                     1            $32,433     Overpayment
                     2             12,965     Overpayment
                     3              8,981     Overpayment
                     4                461     Overpayment
                     5             16,395     Underpayment
                     6             15,423     Underpayment
                     7                399     Underpayment
                     8                181     Underpayment
                                  $87,238 Total

We acknowledge the complexity of processing these cases. Many of the cases we
reviewed required that SSA staff determine past-due survivors benefits for numerous
years, which often involved changes in eligibility periods and benefit rates. Additionally,
SSA staff had to compute SSI payments and net these against the survivors benefits
due. Finally, before issuing payments, staff had to recognize and adjust for
overpayments. Our review found that payment errors resulted from various processing
mistakes. The processing errors included

•   using incorrect benefit rates to determine past-due survivors benefits,
•   using incorrect benefit periods to determine past-due survivors benefits,
•   miscalculating the SSI payment (offset amount), and
•   not adjusting for existing overpayments.

In one example, a Title II beneficiary died in November 2001. In FY 2009, SSA
determined the deceased beneficiary had not received his full Disability Insurance
benefits before his death. SSA subsequently paid his widow $52,545 for the underpaid
Disability Insurance benefits (as a survivors benefit). However, SSA used incorrect
benefit rates to calculate the underpaid Disability Insurance benefits and did not reduce
the amount for SSI payments to the deceased beneficiary. As a result, SSA overpaid
the widow by $32,433.

In another example, a divorced spouse was underpaid $16,395. The Title II beneficiary
died in March 2007. In June 2009, SSA determined it owed the divorced spouse
$36,513 in past-due survivors benefits. However, the deceased beneficiary had a
$20,118 SSI overpayment on his record. SSA properly offset the SSI overpayment
against the survivors benefits, resulting in $16,395 due the divorced spouse. However,
Page 5 – The Commissioner


because SSA personnel did not adjust the SSI record to reflect that the Agency
collected the overpayment, system controls stopped payment of the $16,395 in
survivors benefits.

In the last example, the Title II beneficiary/parent died in 2005. In 2009, SSA
recognized that a childhood disability beneficiary (over age 18) who was receiving SSI
payments was eligible for survivors benefits. While determining the survivors benefit
due, SSA also determined whether the beneficiary was due disability insurance benefits
during his SSI entitlement period, 10 which began in August 1979. SSA determined the
beneficiary was due $11,721 in combined past-due disability and survivors insurance
benefits. However, SSA used incorrect monthly benefit rates to determine the past-due
amounts. As a result, SSA underpaid the beneficiary by $5,243. Additionally, SSA
underpaid the other four children on the deceased parent’s Title II record by $10,180.
As such, the underpayments on the deceased beneficiary’s record totaled $15,423.

SSA procedures require review of cases involving payments greater than $6,000.
However, these cases are complex and, as such, even the reviewing SSA employee did
not detect some of the payment errors we identified. For example, of
the eight payment error cases, four (50 percent) involved payments greater than
$6,000. As such, the payments required approval by another SSA employee. 11 SSA’s
records contained evidence of the required approval for three of the four cases;
however, SSA was unable to locate evidence that the remaining case had been
approved. Because secondary reviews were not always successful in identifying and
correcting payment errors in this difficult workload, we believe SSA should provide
specialized training regarding the processing of these cases.

CONCLUSION AND RECOMMENDATION

SSA did not always calculate the correct survivors benefits due. Payment errors
occurred because SSA staff made processing mistakes in the various calculations.
Moreover, case reviews failed to identify and correct all payment errors. We recognize
the complexity of this workload, and believe that staff knowledge and expertise are
crucial to processing this workload accurately.

Accordingly, we recommend SSA provide additional training to staff and managers
responsible for processing past-due MADCAP survivors benefit transactions greater
than $30,000.


10
  A childhood disability beneficiary (over age 18) receiving SSI may also be eligible for OASDI benefits
as a dependent of an insured parent. See 20 C.F.R. § 404.350.
11
  SSA POMS SM 00858.030.A.1., effective during our audit period, requires that MADCAP payments
greater than $6,000 be approved by a benefit authorizer. The current version of this policy, effective
November 22, 2010, contains the same requirement. SSA POMS SM 00834.425A., effective
June 19, 2009 to present, requires that SPS payments greater than $6,000 be approved by a
post-entitlement technical expert or post-entitlement team leader.
Page 6 – The Commissioner


AGENCY COMMENTS
SSA agreed with our recommendation. The Agency’s comments are included in
Appendix D.




                                        Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Sampling Methodology and Test Results
APPENDIX D – Agency Comments
APPENDIX E – OIG Contacts and Staff Acknowledgments
                                                          Appendix A

Acronyms
Act      Social Security Act
C.F.R.   Code of Federal Records
MADCAP   Manual Adjustment, Credit and Award Process
OASDI    Old-Age, Survivors and Disability Insurance Program
OIG      Office of the Inspector General
PHUS     Payment History Update System
POMS     Program Operations Manual System
SPS      Single Payment System
SSA      Social Security Administration
SSI      Supplemental Security Insurance
U.S.C.   United States Code
                                                                                    Appendix B

Scope and Methodology
In Fiscal Year 2009, the Social Security Administration (SSA) processed 1,068 survivors
benefit actions greater than $30,000 through its Manual Adjustment, Credit and Award
Process (MADCAP) system. The MADCAP actions totaled $51,759,703. From this
population, we sampled 50 transactions. Over half of the transactions in our sample
involved a childhood disability beneficiary (over age 18). 1 At the time of the parent’s
death, SSA had not recognized that the childhood disability beneficiary (over age 18)
was entitled to survivors benefits. When SSA ultimately recognized the claim involved
an eligible survivor, it took action to determine whether the beneficiary was entitled to
past-due survivors benefits.

To accomplish our objective we:

•   Interviewed staff from the Atlanta Region and the Southeast Program Service Center
    to obtain an understanding of how SSA processed the sampled MADCAP actions.

•   For each sampled MADCAP transaction, we recalculated the MADCAP survivors
    benefits transaction, Supplemental Security Income offset, and resulting payment.

To do so, we obtained and reviewed the

       Master Beneficiary Record,
       Payment History Update System record,
       Supplemental Security Record,
       MADCAP hardcopy evidence record, and
       Single Payment System record.

For our error cases, we provided SSA with our detailed calculations for its review and
comments.

Our review of internal controls was limited to gaining an understanding of SSA
procedures for processing MADCAP survivors benefit actions that involve an eligible
survivor identified years after the death of an SSA-insured parent, spouse, or divorced
spouse. For our analysis, we generally relied on data from SSA’s Master Beneficiary



1
 For a person over age 18 to be eligible for child survivors benefits, the individual must (1) have become
disabled before age 22, (2) have had a deceased parent who qualified for Old-Age, Survivors and
Disability Insurance, (3) have been dependent upon the deceased parent, and (4) be unmarried. Social
Security Act § 202; 42 U.S.C § 402 (d) (1). (A), (B), and (C).


                                                   B-1
and Supplemental Security Records. 2 We determined these data were sufficiently
reliable to satisfy our audit objective. The SSA entity audited was the Office of
Operations, Office of Public Service and Operations Support. We conducted the audit
from October 2010 through May 2011 in Atlanta, Georgia, and at the Southeastern
Program Service Center in Birmingham, Alabama. We conducted this performance
audit in accordance with generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objective.




2
 SSA establishes a Master Beneficiary Record for each Title II beneficiary and a Supplemental Security
Record for each Title XVI claimant. These records contain pertinent information needed to pay benefits
accurately to the claimant and all entitled dependents. The information maintained includes identification
data (name, Social Security number, date of birth, address), earnings history, type and date of disability,
and the reason for terminating or suspending benefit payments.


                                                    B-2
                                                                    Appendix C

Sampling Methodology and Test Results
SAMPLING METHODOLOGY
In Fiscal Year 2009, the Social Security Administration (SSA) processed 1,068 survivors
benefit transactions greater than $30,000 through its Manual Adjustment, Credit and
Award Process (MADCAP) system. The MADCAP actions totaled $51,759,703. From
this population, we sampled 50 transactions. Over half of the transactions in our
sample involved a childhood disability beneficiary (over age of 18). At the time of the
parent’s death, SSA had not recognized that the childhood disability beneficiary may
have been entitled to survivors benefits. When SSA ultimately recognized the claim
involved an eligible survivor, it took action to determine whether the beneficiary was
entitled to past-due survivors benefits.

Our audit tested more than one control attribute for some MADCAP transactions.
Based on the source documents available, we determined whether (1) the action that
created the MADCAP transaction was accurate and (2) if the required payment was
made through the Single Payment System, as required. The following chart details our
sample selection.

                   MADCAP Actions Greater Than $30,000
               Population:     Population:
                                                Sample       Sample
               Number of        Amount of
                                                 Size        Dollars
                  Fees          Fees Paid
                 1,068         $51,759,703        50       $2,591,532




                                          C-1
                  SAMPLING AND TEST RESULTS


   Projections of Attribute and Variable Appraisals
                  Attribute Appraisal Projections
 Population and Sample Data                          Actions
 Total Population                                               1,068
 Sample Size                                                      50
 Payment Errors                                                    8
 Projection to Population                           Projections
 Point Estimate                                                  171
 Lower Limit                                                      90
 Upper Limit                                                     285
                  Variable Appraisal Projections
 Population and Sample Data                           Dollars
 Total Population                                     $51,759,703
 Sample                                                $2,591,532
 Payment Errors                                           $87,238
 Projection to Population                           Projections
 Point Estimate                                        $1,861,481
 Lower Limit                                             $425,036
 Upper Limit                                           $3,297,927

We made all projections at the 90-percent confidence level.




                                C-2
                  Appendix D


Agency Comments
                                            Social Security
MEMORANDUM


Date:   September 14, 2011                                                      Refer To: S1J-3

To:     Patrick P. O’Carroll, Jr.
        Inspector General

From:   Dean S. Landis /s/
        Deputy Chief of Staff

Subject: Office of the Inspector General Draft Report, “Accuracy of Title II Survivors Benefit
        Transactions Greater Than $30,000 Processed Through the Manual Adjustment, Credit and
        Award Process System” (A-04-10-10119)--INFORMATION


        Thank you for the opportunity to review the draft report. Please see our attached comments.

        Please let me know if we can be of further assistance. You may direct staff inquiries to
        Frances Cord, at (410) 966-5787.

        Attachment




                                                       D-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, “ACCURACY OF TITLE II SURVIVORS BENEFIT TRANSACTIONS
GREATER THAN $30,000 PROCESSED THROUGH THE MANUAL ADJUSTMENT,
CREDIT AND AWARD PROCESS SYSTEM” A-04-10-10119

Recommendation

Provide additional training to staff and managers responsible for processing past-due MADCAP
survivors benefit transactions greater than $30,000.

Response

We agree.




                                             D-2
                                                                         Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Kimberly A. Byrd, Director

   Frank Nagy, Audit Manager

Acknowledgments

In addition to those named above:

   Lisa Swanson, Senior Auditor

For additional copies of this report, please visit our Website at http://oig.ssa.gov/ or
contact the Office of the Inspector General’s Public Affairs Staff Assistant at
(410) 965-4518. Refer to Common Identification Number A-04-10-10119.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
